                                                                                Issue Date
                                                                                      January 13, 2012
                                                                                Audit Report Number
                                                                                      2012-PH-1004




TO:                Nadab O. Bynum, Director, Office of Community Planning and Development,
                     Philadelphia Regional Office, 3AD
                   //signed//
FROM:              John P. Buck, Regional Inspector General for Audit, Philadelphia Region,
                     3AGA

SUBJECT:           Luzerne County, PA, Generally Administered Its Community Development
                   Block Grant Recovery Act Funds According to Applicable Requirements


                                              HIGHLIGHTS

    What We Audited and Why

                   We audited Luzerne County, PA’s administration of its Community Development
                   Block Grant funds that it received under the American Recovery and
                   Reinvestment Act of 2009. We selected the County for an audit because we
                   received a complaint alleging that the County may have misappropiated Block
                   Grant funds and because of our mandate to audit Recovery Act activities. Our
                   objective was to determine whether the County obligated, expended, and reported
                   its Block Grant funds provided under the Recovery Act according to Recovery
                   Act and applicable U.S. Department of Housing and Urban Development (HUD)
                   requirements. 1

    What We Found


                   The County generally administered its Block Grant Recovery Act funds in
                   accordance with Recovery Act and applicable HUD requirements. However, a
                   nonprofit subrecipient improperly awarded a contract for street improvements
                   valued at $145,152, and the County did not screen subrecipients to prevent
1
    We plan to conduct a separate audit of the County’s non-Recovery Act Block Grant funds.
           debarred, suspended, or ineligible subrecipients from participating in funded
           activities. We found no evidence to substantiate misappropriation of Recovery
           Act funds.

What We Recommend


           We recommend that HUD require the County to (1) provide documentation to
           demonstrate that $145,152 expended for street improvement work was fair and
           reasonable or reimburse its program from non-Federal funds for any amount that
           it cannot support, (2) provide training to its subrecipients on proper procurement
           procedures and the use of change orders, and (3) develop and implement controls
           to screen its subrecipients against the General Services Administration’s Excluded
           Parties List System.

           For each recommendation in the body of the report without a management
           decision, please respond and provide status reports in accordance with HUD
           Handbook 2000.06, REV-4. Please furnish us copies of any correspondence or
           directives issued because of the audit.

Auditee’s Response


           We provided a draft audit report to the County on December 20, 2011, and
           discussed it with County officials at an exit conference on January 3, 2012. The
           County provided written comments to the draft report on January 6, 2012. It did
           not disagree with the conclusions and recommendations in the report. The
           complete text of the County’s response can be found in appendix B of this report.




                                           2
                           TABLE OF CONTENTS

Background and Objective                                                           4

Results of Audit
      Finding: The County Generally Administered Block Grant Funds in Accordance   6
      With Applicable Requirements

Scope and Methodology                                                              12

Internal Controls                                                                  14

Appendixes
   A. Schedule of Questioned Costs                                                 15
   B. Auditee Comments                                                             16




                                           3
                        BACKGROUND AND OBJECTIVE

Luzerne County, PA, is a Community Development Block Grant entitlement grantee. The U.S.
Department of Housing and Urban Development (HUD) annually awards grants to entitlement
grantees to carry out a wide range of community development activities directed toward
revitalizing neighborhoods, economic development, and providing improved community
facilities and services. The County consists of 76 municipalities, governed by a three-member
board of commissioners. The County manages its community development programs through its
Office of Community Development located at 54 West Union Street, Wilkes-Barre, PA. The
executive director of the Office of Community Development is Mr. Andrew D. Reilly.

On February 17, 2009, President Obama signed the American Recovery and Reinvestment Act
of 2009. The purpose of the Recovery Act was to jumpstart the Nation’s ailing economy, with a
primary focus on creating and saving jobs in the near term and investing in infrastructure that
will provide long-term economic benefits. This legislation included a $1 billion appropriation of
community development funds to carry out Block Grant programs as authorized under Title 1 of
the Housing and Community Development Act of 1974.

On June 4, 2009, the County received more than $1.3 million in Block Grant funds under the
Recovery Act. The County planned to use the grant funds on the 13 activities shown in the table
below.

                       Activity                            Revised budget   Original budget
     Kingston-Edwardsville Neighborhood
     Revitalization Strategy Area                                $227,972            $70,000
     Ross Township street improvements                            204,984            280,000
     Earth Conservancy street improvements                        147,336            147,642
     Fairmont Township road reconstruction                        134,488            200,000
     Luzerne County administrative costs                          134,436            134,436
     Forty Fort Boro ADA* pool
     improvements                                                 125,000            125,000
     Kingston library improvements                                120,000            120,000
     Swoyerville Boro street improvements                         100,000            100,000
     Newport Township demolition of four
     buildings                                                     50,000             50,000
     Conyngham Township park
     improvements                                                  40,000             40,000
     Plains Township demolition of three
     structures                                                    23,150             40,000
     Ruth’s Place Shelter renovations                              25,000             25,000
     Wilkes-Barre Township ADA recreational
     facility improvements                                         12,000             12,000
     Totals                                                    $1,344,366         $1,344,078
     * ADA - Americans with Disabilities Act of 1990




                                                       4
The Recovery Act imposed additional reporting requirements and more stringent obligation and
expenditure requirements on the grant recipients beyond those applicable to the ongoing Block
Grant program grants. Transparency and accountability were critical priorities in the funding
and implementation of the Recovery Act.

The regulations at 24 CFR (Code of Federal Regulations) 85.40 state that grantees are
responsible for managing the day-to-day operations of grant- and subgrant-supported activities.

Our objective was to determine whether the County obligated, expended, and reported its Block
Grant funds provided under the Recovery Act according to Recovery Act and applicable HUD
requirements.




                                               5
                                RESULTS OF AUDIT

Finding: The County Generally Administered Block Grant Funds in
Accordance With Applicable Requirements
The County generally obligated, expended, and reported its Block Grant funds in accordance
with Recovery Act and applicable HUD requirements. However, a subrecipient improperly
awarded a contract for street improvements valued at $145,152, and the County did not screen
subrecipients against the General Services Administration’s Excluded Parties List System. This
condition occurred because the subrecipient and the County believed that there was no problem
with the procurement for the street improvement project and the County believed that HUD
checked the subrecipients. As a result, the County could not demonstrate that the expenditure of
$145,152 for street improvements was fair and reasonable, and it had no assurance that its
subrecipients were not prohibited from doing business with HUD.



 The County Submitted an
 Amended Action Plan as
 Required


              In May 2009, the County submitted a substantial amendment to its fiscal year
              2008 annual action plan as required. The annual action plan outlined the activities
              the County would undertake using the Block Grant funds it received. The
              substantial amendment to the fiscal year 2008 annual action plan was required to
              record the activities the County planned to undertake using its Block Grant
              Recovery Act funds. We reviewed the Kingston-Edwardsville Neighborhood
              Revitalization Strategy Area activity and the Ross Township and Earth
              Conservancy street improvement activities. These activities were eligible to be
              funded with Recovery Act funds. The following pictures show some of the work
              completed by the County with its Recovery Act funds.




                                                6
                        Earth Conservancy street improvements (completed)




               Kingston-Edwardsville acquisition of six blighted properties (completed)


The County Was Complying
With the Expenditure Deadline

           The Recovery Act required the County to expend 100 percent of its grant by
           September 30, 2012. As of September 2011, the County had expended 92 percent
           of its grant. It maintained documentation submitted by its subrecipients, such as
           contractor invoices, to support its expenditures. The documentation adequately
           supported the payments.




                                                  7
    The County Complied With
    Davis-Bacon Act Requirements

                 The Recovery Act required that all laborers and mechanics be paid the prevailing
                 wage rates in accordance with the Davis-Bacon Act. HUD Handbook 1344.1,
                 REV-1, required the County to perform wage interviews and review the
                 contractor’s weekly payrolls. We reviewed five payrolls associated with the Earth
                 Conservancy and Ross Township street improvement activities and found that
                 these subrecipients complied with the above requirements.

    The County Reported Accurate
    Job Creation Information

                 The County accurately reported the number of jobs created or retained as a result
                 of its Recovery Act activities. 2 Guidance issued in Office of Management and
                 Budget (OMB) Memorandum 10-08, dated December 18, 2009, defines jobs
                 created or retained as jobs funded during the quarter by the Recovery Act
                 expressed as full-time equivalents. The memorandum also provides guidance on
                 how to calculate full-time equivalents. Full-time equivalents were to be estimated
                 by dividing the total number of hours worked and funded by the Recovery Act
                 within the reporting period by the quarterly hours in a full-time schedule. We
                 reviewed the County’s June 2011 quarterly report on the Federal reporting Web
                 site and found that it accurately reported job creation information.

    The County Generally
    Complied With Procurement
    Requirements


                 The County generally complied with HUD procurement regulations and guidance.
                 We reviewed two contracts valued at $348,027 for street improvement activities.
                 The County entered into subrecipient agreements with a municipality (Ross
                 Township) and a nonprofit (Earth Conservancy) subrecipient. During our review
                 of the two contracts, we found that the subrecipients

                      •   Received an adequate number bids to ensure that they awarded contracts
                          competitively as required by 24 CFR 85.36 and 84.43. The subrecipients
                          advertised and competitively awarded the contracts and maintained
                          sufficient documentation to support the procurement.




2
 Grant recipients are required to report spending and performance data, including estimates of the number of jobs
created and retained, on the Federal reporting Web site, www.recovery.gov.



                                                         8
              •   Complied with HUD guidance for implementing the “buy American”
                  requirement of the Recovery Act in HUD Office of Community Planning
                  and Development Notice CPD-09-05.

A Subrecipient Improperly
Awarded a Contract

           Earth Conservancy improperly awarded street improvement work valued at
           $145,152 by awarding the contract to the same contractor that prepared the
           independent cost estimate for the project and increasing the size of the project by
           46 percent via a change order the day before the effective date of the contract.
           Awarding the contract to the same company that prepared the independent cost
           estimate created an unfair advantage for the contractor. Moreover, the
           subrecipient increased the value of the contract by $47,815 (a 49 percent increase
           in the amount paid to the contractor) via a change order. As a result, the value of
           the contract increased from $97,337 to $145,152. In this case, the change order
           summary was labeled “570 linear foot road extension,” and was effective
           October 27, 2009, the day before the effective date of the contract itself. This
           change order constituted a material expansion of the project because contractors
           initially submitted bids based on a road extension project with a scope of 1,228
           linear feet. The change order increased the size of the project by 46 percent.

           The regulations at 24 CFR 84.43 state that all procurement transactions must be
           conducted in a manner to provide, to the maximum extent practical, open and free
           competition. The recipient should be alert to organizational conflicts of interest
           as well as noncompetitive practices among contractors that may restrict or
           eliminate competition or otherwise restrain trade. The regulations at 24 CFR
           84.44 state that recipients must make available procurement documents, such as
           requests for proposals or invitations for bids, independent cost estimates, etc.,
           when a proposed contract modification changes the scope of a contract or
           increases the contract amount by more than the amount of the small purchase
           threshold.

           Earth Conservancy should have executed a new procurement action and given all
           contractors an opportunity to bid on the larger scope project. Because the
           subrecipient improperly awarded this work, there was no assurance that the price
           paid was fair and reasonable. As a result, the $145,152 paid for this work was
           unsupported.




                                            9
The County Did Not Screen
Subrecipients To Identify
Excluded Parties

             The County did not screen subrecipients to prevent debarred, suspended, or
             ineligible subrecipients from participating in funded activities. The regulations at
             24 CFR 570.609 prohibit the use of debarred, suspended, or ineligible contractors
             or subrecipients. The regulations at 24 CFR 85.35 state that grantees and
             subgrantees must not make any award or permit any award (subgrant or contract)
             at any tier to any party that is debarred or suspended or is otherwise excluded
             from or ineligible for participation in Federal assistance programs. The County
             did not screen its nonprofit and social services subrecipients against the General
             Services Administration’s Excluded Parties List System. It believed that HUD
             checked the subrecipients since their Data Universal Numbering System numbers
             were entered into HUD’s drawdown and reporting system for formula grant
             programs including the Block Grant program. We discussed this issue with
             County officials during the audit, and they informed us that the County had
             started screening its nonprofit and social services subrecipients against the
             General Services Administration’s Excluded Parties List System.


Conclusion


             The County generally administered its Block Grant Recovery Act funds in
             accordance with the Recovery Act and applicable HUD requirements. The
             conditions identified by the audit occurred because the subrecipient and the
             County believed that there was no problem with the procurement for the street
             improvement project and the County believed that HUD checked for excluded
             parties. As a result, the County could not demonstrate that the expenditure of
             $145,152 for street improvements was fair and reasonable, and it had no assurance
             that its subrecipients were not prohibited from doing business with HUD. To
             resolve the issues identified by the audit, the County needs to demonstrate that
             $145,152 expended for street improvement work was fair and reasonable and
             develop and implement controls to ensure that it screens subrecipients against the
             General Services Administration’s Excluded Parties List System.




                                              10
Recommendations



          We recommend that the Director of HUD’s Philadelphia Office of Community
          Planning and Development require the County to

          1A.     Provide documentation to demonstrate that $145,152 expended for street
                  improvement work was fair and reasonable or reimburse its program from
                  non-Federal funds for any amount that it cannot support.

          1B.     Provide training to its subrecipients on proper procurement procedures and
                  the use of change orders.

          1C.     Develop and implement controls to screen its subrecipients against the
                  General Services Administration’s Excluded Parties List System.




                                          11
                         SCOPE AND METHODOLOGY

We conducted the audit from July through December 2011 at the County’s office located at 54
West Union Street, Wilkes-Barre, PA, and at our office located in Philadelphia, PA. The audit
covered the period February 2009 through June 2011 but was expanded when necessary to
include other periods.

To achieve our audit objective, we

   •   Relied in part on computer-processed data in the County’s database. We used the computer-
       processed data to select activities for review and verify the County’s draws of funds from
       HUD’s automated drawdown and reporting system. Although we did not perform a
       detailed assessment of the reliability of the data, we did perform a minimal level of testing
       and found the data to be adequate for our purposes.

   •   Obtained relevant background information.

   •   Reviewed the Recovery Act, OMB implementation guidance, and applicable HUD
       regulations and guidance.

   •   Reviewed minutes from the meetings of the County’s board of commissioners.

   •   Reviewed the County’s policies and procedures related to procurement, monitoring, and
       reporting of grant funds, expenditures, and disbursements.

   •   Reviewed the County’s fiscal year 2009 audited financial statements and 2010 draft
       audited financial statements.

   •   Interviewed relevant County and subrecipient staff and officials from HUD’s
       Philadelphia Office of Community Planning and Development.

   •   Reviewed relevant subrecipient agreements, monitoring and reporting records, and
       financial records.

   •   Selected the Kingston-Edwardsville Neighborhood Revitalization Strategy Area activity
       and the Ross Township and Earth Conservancy street improvement activity for review
       from the list of 13 activities the County included in its substantial amendment to its fiscal
       year 2008 annual action plan because the $580,292 in funds budgeted to those activities
       represented 43 percent of the County’s $1.3 million grant.

   •   Reviewed two contracts valued at $348,027 for the Ross Township and Earth
       Conservancy street improvement activities. These were the two largest contracts
       associated with the three activities that we reviewed.




                                                12
   •   Reviewed $479,115 in expenditures (36 percent of the County’s grant) for the Kingston-
       Edwardsville Neighborhood Revitalization Strategy Area activity ($126,765) and the
       Ross Township ($204,984) and Earth Conservancy ($147,366) street improvement
       activities. The payments were supported by invoices and other supporting
       documentation.

   •   Reviewed the County’s June 2011 and September 2011 quarterly reports on the Federal
       reporting Web site.

   •   Visited the physical locations related to the Kingston-Edwardsville Neighborhood
       Revitalization Strategy Area activity and the Ross Township and Earth Conservancy
       street improvement activities to verify that the planned activities were either underway or
       completed.

   •   Reviewed five payrolls associated with the two contracts for the Earth Conservancy
       (three November 2009 payrolls) and Ross Township (two October 2009 payrolls) street
       improvement activities to determine whether the County ensured that its subrecipients
       complied with Davis-Bacon Act requirements. These were the only payrolls that charged
       labor to the activities during the respective months.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                               13
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


               We determined that the following internal controls were relevant to our audit
               objective:

               •    Policies and procedures that the County implemented to ensure that activities
                    met established program objectives and requirements.

               •    Policies and procedures that the County implemented to ensure that resource
                    use was consistent with applicable laws and regulations.
               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

               We evaluated internal controls related to the audit objective in accordance with
               generally accepted government auditing standards. Our evaluation of internal
               controls was not designed to provide assurance regarding the effectiveness of the
               internal control structure as a whole. Accordingly, we do not express an opinion on
               the effectiveness of the County’s internal control.




                                                 14
                                   APPENDIXES


Appendix A

                 SCHEDULE OF QUESTIONED COSTS

                          Recommendation
                                                  Unsupported 1/
                          number
                                 1A                 $145,152



1/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.




                                             15
Appendix B

             AUDITEE COMMENTS




                    16
                                                                                                   ANDREW D. REILLY
                                                                                                     Executive Director

                                                                                                          E-MAIL:
                                                                                               luzcoocd@luzernecounty.org




                                 COUNTY of LUZERNE
                                   P E N N S Y L V A N I A
                                     E S T A B L I S H ED   1786

                             OFFICE OF COMMUNITY DEVELOPMENT
                              54 WEST UNION STREET, WILKES-BARRE, PA 18701
                                O: 570.824.7214 F: 570.829.2910 TDD: 570.825.1860




January 6, 2012

Mr. John P. Buck
Regional Inspector General for Audit
HUD-Office of Inspector General
Wanamaker Building, Suite 10205
100 Penn Square East
Philadelphia, PA 19107-3380

Dear Mr. Buck:

I am writing to acknowledge receipt of the draft audit report prepared by your office. I would also like to
thank you and your staff for discussing the findings and recommendations contained in the audit with us
on January 3, 2012.


With regard to recommendation 1A, it is our intention to seek an independent review of the project from a
professional engineer to ensure reasonableness of the costs incurred. Once the review is complete we will
forward the information to the Director of the Office of Community Planning and Development.


Should you like to discuss this issue further please contact me at your convenience.


Sincerely,



Andrew D. Reilly
Executive Director




                                                        17
